NO.
SUPREME COURT OF THE UNITED STATES
PETITIONER,

MATTHEW J. O’NEAL

vs.
RESPONDENT.

UNITED STATES OF AMERICA,
PROOF OF SERVICE

I, Frank W. Heft, Jr., a member of the Bar of this Court, state that on April 9,
2021, as required by Supreme Court Rules 21.3 and 29,1 have served a copy of the
enclosed Petition for a Writ of Certiorari, Appendix to the Petition, Supplemental
Appendix (sealed), Motion for Leave to File the Supplemental Appendix under Seal,
and Motion for Leave to Proceed in Forma Pauperis by depositing them with the
United States Postal Service, with first class postage prepaid, properly addressed to:
Elizabeth B. Prelogar
Acting Solicitor General
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
All parties required to be served have been served.
Frank W. Heft, Jr.
Counsel ofRecord
Office of the Federal Defender
200 Theatre Building
629 Fourth Street
Louisville, Kentucky 40202
(502) 584-0525
Frank Heft@fd.org
Counsel for Petitioner

